BRYAN
CAVE
LEIGHTON 134-ip
PAISNER I ‘L'

October 16, 2020

BRYAN CAVE LEIGHTON PAISNER LLP
Three Embarcadero Center
7th Floor
San Francisco CA 94111 4070
T: +1 415 675 3400
F: +1 415 675 3434
bclplaw.com

Hon. Scott Harris
Office of the Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Fredman Bros. Furniture Company, Inc. v. Bedgear LLC, No. 20-408

Dear Mr. Harris:
We represent the respondent, Bedgear LLC, in the above-referenced matter.
Petitioner filed a petition for writ of certiorari on September 25, 2020.
Respondent’s brief in opposition is due on or before October 29, 2020. Pursuant to
Supreme Court Rules 15.3 and 30.4, Respondent respectfully requests a thirty day
extension of time in which to file their brief in opposition. Because the thirty-day
extension would expire on Saturday, November 28, granting the extension would
mean that Respondent’s brief would be due on or before November 30, 2020.
We request this modest extension in order to carefully consider and respond
to the arguments raised in the petition and due to the press of other business,
including upcoming appellate arguments and briefing. Petitioner does not oppose
this extension request and counsel for petitioner is being served with a copy of this
letter.
Thank you for your consideration of this request.
Sincerely,
/s/ K. Lee Marshall
K. Lee Marshall

CC:

Abran J. Kean, Counsel of Record for Petitioner

